<html>
<title> - REVIVING OUR ECONOMY: HOW CAREER AND TECHNICAL EDUCATION CAN STRENGTHEN THE WORKFORCE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





 
                       REVIVING OUR ECONOMY: HOW
                     CAREER AND TECHNICAL EDUCATION
                      CAN STRENGTHEN THE WORKFORCE

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

           HEARING HELD IN LAS VEGAS, NEVADA, MARCH 18, 2014

                               __________

                           Serial No. 113-52

                               __________

  Printed for the use of the Committee on Education and the Workforce
  
  
  
  
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
  
  
  


      Available via the World Wide Web: www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
                               ________________             

            
                          U.S. GOVERNMENT PUBLISHING OFFICE
87-139 PDF                         WASHINGTON : 2015       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001   
     
     
     
     
     
     
     
     
     
     
            
            
            
            
            
                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Thomas E. Petri, Wisconsin           George Miller, California,
Howard P. ``Buck'' McKeon,             Senior Democratic Member
    California                       Robert C. ``Bobby'' Scott, 
Joe Wilson, South Carolina               Virginia
Virginia Foxx, North Carolina        Ruben Hinojosa, Texas
Tom Price, Georgia                   Carolyn McCarthy, New York
Kenny Marchant, Texas                John F. Tierney, Massachusetts
Duncan Hunter, California            Rush Holt, New Jersey
David P. Roe, Tennessee              Susan A. Davis, California
Glenn Thompson, Pennsylvania         Raul M. Grijalva, Arizona
Tim Walberg, Michigan                Timothy H. Bishop, New York
Matt Salmon, Arizona                 David Loebsack, Iowa
Brett Guthrie, Kentucky              Joe Courtney, Connecticut
Scott DesJarlais, Tennessee          Marcia L. Fudge, Ohio
Todd Rokita, Indiana                 Jared Polis, Colorado
Larry Bucshon, Indiana               Gregorio Kilili Camacho Sablan,
Trey Gowdy, South Carolina             Northern Mariana Islands
Lou Barletta, Pennsylvania           Frederica S. Wilson, Florida
Martha Roby, Alabama                 Suzanne Bonamici, Oregon
Joseph J. Heck, Nevada               Mark Pocan, Wisconsin
Susan W. Brooks, Indiana
Richard Hudson, North Carolina
Luke Messer, Indiana

                    Juliane Sullivan, Staff Director
                 Jody Calemine, Minority Staff Director
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 18, 2014...................................     1

Statement of Members:
    Heck, Hon. Joseph, a Representative in Congress from the 
      State of Nevada............................................     2
        Prepared statement of....................................     4
    Hinojosa, Hon. Ruben, a Representative in Congress from the 
      State of Texas.............................................     8
        Prepared statement of....................................     8
    Kline, Hon. John, Chairman, Committee on Education and the 
      Workforce..................................................     1
        Prepared statement of....................................     9
    Scott, Hon. Robert, C. "Bobby", a Representative in Congress 
      from the State of Virginia.................................     5
        Prepared statement of....................................     7

Statement of Witnesses:
    Nemcek, Felicia, Principal, Southwest Career and Technical 
      Academy, Las Vegas, NV.....................................    10
        Prepared statement of....................................    13
    Spangler, Michael, PH.D., School of Advanced and Applied 
      Technologies, College of Southern Nevada, North Las Vegas, 
      NV.........................................................    17
        Prepared statement of....................................    19
    Qua, Kacy, Founder and Chief Executive Officer, Qualifyor, 
      Las Vegas, NV..............................................    24
        Prepared statement of....................................    27
    Aleman, Alan, Student, College of Southern Nevada, North Las 
      Vegas, NV..................................................    35
        Prepared statement of....................................    37
    Morrison, Visiting Professor, William S. Boyd School of Law, 
      University of Nevada, Las Vegas, NV........................    40
        Prepared statement of....................................    42
    Woodbeck, Frank, R., Director, Nevada Department of 
      Employment, Training, and Rehabilitation, North Las Vegas, 
      NV.........................................................    47
        Prepared statement of....................................    50

Additional Submissions:
    Mr. Spangler: Perking Grant Funding Received to Support 
      Workforce Development at the College of Southern Nevada....    70
      
      
      
      


Reviving Our Economy: How Career and Technical Education Can Strengthen 
                             the Workforce

                              ----------                              


                        Tuesday, March 18, 2014

                        House of Representatives

                Committee on Education and the Workforce

                            Washington, D.C.

                              ----------                              

    The committee met, pursuant to call, at 1:00 p.m., at the 
Southwest Career and Technical Academy, Coyote Ballroom, 7050 
West Shelburne Avenue, Las Vegas, Nevada, John Kline [chairman 
of the committee] presiding.
    Present: Representatives Kline, Heck, Scott, and Hinojosa.
    Also present: Representatives Titus and Horsford.
    Staff Present: Janelle Belland, Coalitions and Member 
Services Coordinator; Marvin Kaplan, Workforce Policy Counsel; 
Rosemary Lahasky, Professional Staff Member; Dan Shorts, 
Legislative Assistant; Alex Sollberger, Communications 
Director; Jacque Chevelier, Minority Education Policy Advisor; 
and Brian Kennedy, Minority Senior Counsel.
    Chairman Kline. A quorum being present, the committee will 
come to order. Good morning. Welcome. I am glad to be here in 
Nevada's 3rd District with my good friend and colleague, Joe 
Heck. Joe, thanks for letting us come visit.
    Mr. Heck. Thank you.
    Chairman Kline. Thank you to Southwest Career and Technical 
Academy for hosting our field hearing and to our guests and 
witnesses for joining us today. We are here to discuss ways 
schools, States, and the Federal government can work together 
to strengthen career and technical education and help more 
Americans gain valuable job skills.
    Our economy faces many challenges. Millions remain out of 
work, and the labor participation rate has declined to 30-year 
lows. Here in the Silver State, families struggle with 8.8 
percent unemployment, one of the highest unemployment rates in 
the country. I think we determined this morning it is second.
    Voice. Second.
    Chairman Kline. Unemployment among young people ages 16 to 
19 is even higher at 29 percent. We need to do more to help 
these families rebuild and recover from the lingering effects 
of the recession. One of the House Education and Workforce 
Committee's priorities for the 113th Congress has been 
strengthening the Nation's network of job training services. 
Last year, the House approved the Supporting Knowledge and 
Investing in Lifelong Skills Act, legislation that revamped the 
Federal workforce development system and helped more workers 
learn in-demand skills.
    The committee is now examining career and technical 
education, or CTE, in preparation for the upcoming 
reauthorization of the Perkins Act. As you may know, the 
Perkins Act provides Federal funding and supports States to 
support CTE programs that allow high school and community 
college students to access valuable training programs and 
hands-on experience necessary to gain an edge in the local 
workforce.
    There are a number of great CTE schools in Nevada, and we 
are fortunate to be holding today's field hearing at one of the 
best. The Southwest Career and Technical Academy is renowned 
for its rigorous coursework and hands-on training in a number 
of fields, including nursing, culinary arts, automotive 
technology, and web design, just to name a few. I believe my 
colleagues and I have the opportunity after the hearing to take 
a tour of the school, and I look forward to meeting with 
students, visiting the classrooms, and seeing firsthand the 
quality training available here at the academy.
    As the committee works to strengthen career and technical 
education, it is important that we hear from students, 
educators, and State and local leaders in the business and 
education communities about the challenges and opportunities 
facing CTE programs. Your feedback helps inform and strengthen 
our work in Washington, and we are grateful for your 
participation and your input.
    Once again, I would like to thank our witnesses for joining 
us today and helping us have a productive conversation on this 
important issue.
    I would like now to yield to Mr. Heck for his opening 
remarks.
    Mr. Heck. Well, thank you, Chairman Kline, and welcome to 
Las Vegas and to Southwest Career Technical Academy. And I also 
want to thank Mr. Scott and Mr. Hinojosa for participating 
today. Of course I want to thank the committee staff for all 
the hard work that goes into putting on a field hearing, and of 
course our hosts here at Southwest Career Technical Academy, I 
think one of the shining stars of the Clark County School 
District.
    You know, I recently visited Southwest a few months back 
after meeting with some of the DECA students from Southwest in 
Washington, D.C. And I was so impressed by them, I said, you 
know what, when I am back in the district, I am going to have 
to come and check out your school. So next time I was back in 
the district we came for a tour, and it was just incredible to 
see the amount of energy that was harnessed here amongst the 
students in participating in CTE education.
    They are eager to do well and graduate. They are eager to 
learn skills they know are in demand right now, and they are 
eager to take those skills into the working world or onto 
college. I am sure all of those who may stick around to take 
the tour after the hearing will be duly impressed by the 
incredible facilities that are present here at Southwest Career 
and Technical Academy.
    And I want to point out that Southwest is just one of a 
number of highly successful schools in the Clark County School 
District offering students educational opportunities in fields 
ranging from computer science, to information technology, to 
law enforcement, and nursing. In fact, Clark County School 
District has over 25 magnet schools and career technical 
academies dedicated to providing students a variety of pathways 
leading to both careers and higher education. Seventeen of 
these schools, including Southwest, was recently recognized as 
either a School of Excellence or a School of Distinction by the 
National Organization of Magnet Schools of America.
    During the 2012 school year, nearly 40,000 students in the 
Clark County School District were enrolled in career and 
technical education courses, representing 44 percent of the 
high school population. They have demonstrated themselves to be 
high performing and highly motivated. They are engaged, and 
they very much want to be prepared to be college or career 
ready upon their graduation.
    CTE programs prepare students for critically important 
careers in public service. Communities need individuals well-
schooled in these programs, especially here in southern Nevada. 
Finally, career and technical education extends all these 
opportunities to those who have been disproportionately 
affected by the recession and the slow pace of our economic 
recovery. Sixty-one percent of CTE students in the Clark County 
School District are minority students. Clearly career and 
technical education academies are critically important now more 
than ever, and our students strive to be part of them.
    You know, the reason why I also wanted to have this field 
hearing here, and I appreciate the chairman's indulgence, is 
because we face some unique challenges here in Clark County 
when it comes to CTE funding. Included within the President's 
budget proposal, the guaranteed formula funding for CTE 
programs in Nevada would be cut by nearly 50 percent while CTE 
programs in other States would only be cut by less than 1 
percent.
    The large disparity in cuts is caused by the outdated 
funding formula included in the 2006 Carl T. Perkins Career and 
Technical Education Act. The bill established a funding formula 
largely based on population and poverty. However, in States 
that saw large growth spurts during the 2000s, that funding 
formula really does not hold true and represent the large 
populations that we have seen.
    So I joined with Congressman Raul Grijalva, my Democratic 
committee colleague from Arizona, an area that also saw 
explosive growth during this timeframe, to introduce the Career 
and Technical Education Equity Act, which protects critical CTE 
funding by requiring States to receive at least 90 percent of 
the funding amount allocated the previous years so there are no 
precipitous cuts to any program across the country. I am 
hopeful we will discuss this critical question of funding for 
CTE programs during this hearing.
    Again, I thank the chairman for his attention to this issue 
and for bringing the hearing to Las Vegas and to Southwest 
Career and Technical Academy. I look forward to hearing the 
testimony from our distinguished panel of witnesses, and yield 
back the balance of my time.
    [The statement of Mr. Heck follows:]

 Prepared Statement of Hon. Joseph Heck, a Representative in Congress 
                        from the State of Nevada

    I recently visited Southwest Career and Technical Academy here in 
Nevada's Third District and met with students, teachers, and 
administrators to learn about the school and the courses they offer.
    I also got the chance to hear firsthand from students about their 
experiences with career and technical education and how they think it 
will help them in the future.
    The overall impression I got from them was clear.
    They are eager to do well and graduate. They are eager to learn 
skills they know are in- demand right now and they are eager to take 
those skills into the working world or on to college.
    I even ate lunch provided by the Culinary Arts students and let me 
tell you; It was delicious. I am sure all of you who stick around for 
the tour of the school will be just as impressed as I was with the 
students, the facilities, and the quality of the educational experience 
students receive at Southwest.
    But Southwest is just one of a number of highly successful schools 
here in the Clark County School District offering students educational 
opportunities in fields ranging from computer science and information 
technology to law enforcement and nursing.
    In fact, the Clark County School District is home to 25 Magnet 
Schools and Career & Technical Academies dedicated to providing 
students a variety of pathways leading to both careers and higher 
education.
    17 of these schools, including Southwest, were recently recognized 
as either a school of excellence or a school of distinction by the 
national organization Magnet Schools of America. During the 2012 school 
year, nearly 40,000 students in CCSD were enrolled in career and 
technical education courses, representing 44% percent of the high 
school student population.
    Students enrolled in CTE have demonstrated themselves to be high-
performing, highly-motivated individuals who, according to information 
we received from Clark County School District, graduate at a higher 
rate than their traditional high school peers.
    While enrolled, CTE students are choosing courses of study that 
will lead them down a path to success in the increasingly-advanced 
global economy.
    On the Committee, we are always talking about the importance of 
STEM education-education focused on science, technology, engineering, 
and math.
    Well our CTE students have heard the message. Among the most 
popular courses of study are information technologies and the skilled 
and technical sciences.
    And the skills learned in our magnet and career and technical 
academies are helping sectors of our economy - like manufacturing and 
health care services - erase talent shortages and fill available jobs.
    CTE programs also prepare students for critically important careers 
in public service. Our communities need individuals well-schooled in 
criminal justice, law enforcement, early childhood development, and 
emergency medical services.
    A competent, highly-trained workforce in these areas will make our 
state and our local communities safer and healthier.
    Finally, career and technical education extends all of these 
opportunities to those who have been disproportionately affected by the 
recession and the slow pace of our economic recovery.
    Fifty three percent of CTE students are Hispanic and African 
American while another 8% are Asian Americans.
    These demographic groups are a growing, thriving part of the 
diverse culture and economy of the Las Vegas Valley and by enrolling in 
CTE programs, these students are learning skills and acquiring 
knowledge that will help put them on a path to success as well as 
strengthen and diversify our local economy.
    Clearly, career and technical education academies are critically 
important now more than ever. Our students thrive in them and our 
economy relies on them.
    Yet as CTE is moving this region's economy forward, a recent 
proposal by the Obama Administration threatens to drastically reduce 
CTE funding for our state.
    Included within the President's budget proposal, guaranteed formula 
funding for CTE programs in Nevada would be cut by nearly 50%, while 
CTE programs in other states would only be cut by less than 1%.
    This large disparity in cuts is caused by an outdated funding 
formula included in the 2006 Carl D. Perkins Career and Technical 
Education Act.
    The bill established a funding formula largely based on population 
and poverty; however, there is also a hold-harmless provision included 
within the formula that guarantees states will receive the federal 
funding levels provided in 1998.
    However, since that time Nevada's population has increased from 1.8 
million to more than 2.75 million causing our state to face 
disproportionate cuts to federal CTE funding under the current hold-
harmless provision.
    Nevada will not be able to adequately fund our thriving CTE 
programs on 1998 funding levels and we should not be punished simply 
because we have experienced population growth.
    So I joined with Congressman Raul Grijalva, my Democratic committee 
colleague from Arizona, in introducing the Career and Technical 
Education Equity Act which protects critical CTE funding by requiring 
states receive at least 90% of the funding amount allocated the 
previous year.
    This bill will protect CTE funding and continue to provide students 
around Nevada and the nation with opportunities to learn the skills to 
help them find in-demand jobs. I am hopeful we will discuss the 
critical question of funding for CTE programs during this hearing.
                                 ______
                                 
    Chairman Kline. I thank the gentleman. We are very 
fortunate to have two of our Democratic colleagues on the 
Education and Workforce Committee joining us today. I would now 
like to recognize Mr. Scott of Virginia for any opening remarks 
he may have.
    Mr. Scott. Thank you, Mr. Chairman, and I thank you and the 
gentleman from Nevada, Mr. Heck, for calling the hearing. I am 
pleased to join my colleague, Mr. Hinojosa, and I believe Mr. 
Horsford from the Las Vegas area will be joining us shortly. I 
understand he has been detained. I just left the Culinary 
Academy of Las Vegas seeing some of the good work that is done 
in this area, and I look forward to watching the situation here 
because I understand that they have done an excellent job.
    The reauthorization of the Carl D. Perkins Career and 
Technical Education Act presents this committee with an 
opportunity to ensure that all students are equipped with the 
skills to succeed in the rapidly evolving 21st century economy. 
Today's career and technical education programs, or CTE, are 
successfully preparing millions of students for lifelong 
learning, bridging the divide between high school and post-
secondary education and training. That education is essential 
today because we live in a high tech information-based economy 
where most jobs now require education past the high school 
level, not necessarily a 4-year college, but community college, 
apprentice school, or some education like the ones offered here 
at the Academy to provide students with the skills and 
knowledge that today's employers demand. Students here can take 
courses grounded in an integrated curriculum of core academic 
content and real world work-based relevance.
    Data shows CTE to be a powerful tool for engaging students, 
closing the achievement gap, and improving schools. That makes 
sense because students who see the relevance of their education 
are much more likely to stay in school.
    With the bipartisan reauthorization of the Perkins Act, we 
must guarantee equal opportunity to participate in and benefit 
from the CTE programs, and all students who have completed CTE 
should have an equal opportunity to take what they have learned 
to pursue higher education and a career. The opportunity to 
thrive with CTE programs increases a student's earning 
potential and improves the ability of the student to attain 
economic security in the future.
    I serve on two committees, Education and Workforce, but 
also on the Judiciary Committee, where I see that those who get 
a decent education are much less likely to be involved in the 
criminal justice system. Youth who are here getting a good 
education and good training are much less likely to be involved 
in what the Children's Defense Fund calls the cradle to prison 
pipeline. They would be in a cradle to career pipeline. This is 
great not only for students, but also for the taxpayers because 
when students mess up and end up in prison, it is the taxpayers 
that have to support them.
    The CTE system represents an innovative approach that 
allows us to get students involved in hands-on learning and 
training, and we know that opportunity must be available to 
all. Unfortunately, each year more than 65,000 students 
graduate from U.S. high schools, who, through no fault of their 
own, are barred from post-secondary education due to 
immigration status. These are students who are educated in our 
schools, who pledge allegiance to our flag, and who yearn for 
the ability to work towards the American Dream and meaningfully 
contribute to the American economy. They are known as 
``DREAMers.'' This group represents a small percentage of more 
than 11 million undocumented immigrants in the United States.
    Now, many DREAMers participate in CTE programs through our 
Nation's secondary schools. But unlike their peers, they are 
unable to fully benefit from the public investment that we make 
in schools such as this one. Without a social security number, 
a student cannot take advantage of work-based experiential 
training. They are barred from legal employment, and in many 
States cannot afford to pursue post-secondary education or job 
training because Federal student aid or work study is 
unavailable to them.
    With more than 40 percent of undocumented families living 
in poverty, cost alone puts college out of reach. Here in 
Nevada, this lack of opportunity is particularly troubling. 
More than 12 percent of the State's workforce is undocumented, 
the highest in the country, and some DREAMers right here at the 
Academy are learning valuable skills that may never be able to 
put to use.
    Now, some of us are committed to righting these wrongs. 
Unfortunately, comprehensive immigration reform and the DREAM 
Act remain stalled in the House. The Obama Administration did 
take action on behalf of DREAMers by issuing an executive order 
for deferred action for children arrivals, DACA. Although not a 
legislative or a sufficient solution, this executive action 
allowed thousands of DREAMers to pursue work legally and, in 
some cases, qualify for in-state tuition to attend college. On 
the other hand, last week the majority in the House passed not 
one, but two bills seeking to undermine DACA and return 
DREAMers to living in fear of deportation or as a permanent 
underclass.
    So if we expect all students to benefit from career 
training, we must make sure that the 65,000 DREAMers who 
graduate this year are not left behind, and for all of the 
students we have to reauthorize the Carl D. Perkins Career and 
Technical Education Act as well as other legislation that 
addresses the training and educational needs of our country, 
such as the Workforce Investment Act and the Higher Education 
Act. The future of today's students and, therefore, the future 
of our Nation depends on what we do.
    [The statement of Mr. Scott follows:]

Prepared Statement of Hon. Robert C. "Bobby" Scott, a Representative in 
                  Congress from the State of Virginia

    Thank you, Mr. Chairman. I also want to thank our distinguished 
witness panel for their participation in today's hearing. I look 
forward to learning about the great work here in Clark County School 
District to graduate all students and ensure that they are college- and 
career- ready.
    Reauthorization of the Carl D. Perkins Career and Technical 
Education Act presents this Committee with an opportunity to ensure ALL 
students are equipped with the skills to succeed in a rapidly evolving 
21st century economy.
    Today's career and technical education programs, or CTE, are 
successfully preparing millions of students for lifelong success 
bridging the divide between high school and postsecondary education and 
training. These programs, like the ones offered here at the Academy, 
provide students with the skills and knowledge that today's employers 
demand. Students take courses grounded in an integrated curriculum of 
core academic content and real-world, work-based relevance.
    Data shows CTE to be a powerful tool for engaging students, closing 
achievement gaps, and improving schools. In a bipartisan 
reauthorization of Perkins, we must guarantee equal opportunity to 
participate in - and benefit from - CTE programs. And all students who 
have completed CTE should have an equal opportunity to take what they 
learned to pursue higher education and a career.
    The opportunity to thrive in a CTE program increases a student's 
earning potential, improves the ability of a student to attain economic 
security in the future, and decreases his or her chances of being 
involved in criminal activities. Youth are going to be on the cradle to 
career pipeline and make money for themselves, or they will be on what 
the Children's Defense Fund has coined as the ``cradle to prison'' 
pipeline, where TAXPAYERS will be ultimately be obligated to pay for 
their incarceration. In fact about 2/3 of all prisoners are high school 
dropouts.
    The CTE system represents an innovative approach that allows us to 
get students involved in hands-on learning and training. But we know 
that ALL students aren't afforded this opportunity. Each year more than 
65,000 students graduate from U.S. high schools who, through no fault 
of their own, are barred from postsecondary success due to immigration 
status. These are students who are educated in our schools, who pledge 
allegiance to our flag, and who yearn for the ability to work toward 
the American dream and meaningfully contribute to the American economy. 
Known as DREAMers, this group represents just a small percentage of the 
more than 11 million undocumented immigrants in the U.S.
    Many DREAMers participate in CTE programs through our nation's 
secondary schools. But unlike their peers, they are unable to fully 
benefit from the public investment that we make in schools like this 
one. Without a social security number, a student cannot take advantage 
of work-based experiential learning, is barred from legal employment, 
and, in many states, cannot afford to pursue postsecondary education or 
job training because federal student aid or work- study is unavailable 
to them. With more than 40% of undocumented families living in poverty, 
cost alone puts college out of reach.
    Here in Nevada, this lack of opportunity is particularly troubling. 
More than 12% of this state's workforce is undocumented - the highest 
in the country. Some of these DREAMers are right here at the Academy, 
learning valuable skills they may never be able to put to use.
    President Obama and Congressional Democrats are committed to 
righting these wrongs. Unfortunately, comprehensive immigration reform 
and the DREAM Act remain stalled in the House. The Administration took 
action on behalf of DREAMers by issuing the executive order for 
Deferred Action for Childhood Arrivals or DACA. Although not a 
legislative or sufficient solution, this executive action allowed 
thousands of DREAMer students to pursue work legally and, in some 
cases, qualify for in-state assistance to attend college.
    Just last week, however, House Republicans passed not one, but two 
bills seeking to undermine DACA and return DREAMers to living in fear 
of deportation or in a permanent underclass. DACA was given as 
justification for targeting the President's executive orders.
    There are some on the other side of the aisle who claim to support 
a pathway to citizenship for DREAMers and their families, but vote time 
and time again to block or undermine attempts to help these students. 
For these young people, every year, every month of inaction on 
immigration reform is costly.
    I am eager for bipartisan collaboration to reauthorize the Carl D. 
Perkins Career and Technical Education Act, as well as other 
legislation that addresses the training and educational needs of our 
country, such as the Workforce Investment Act and the Higher Education 
Act.
    But I am also eager for Congress to come together to fix the broken 
immigration system. We need bipartisan collaboration to allow all 
students, including DREAMers, the opportunity to fulfill their 
potential and we know that CTE is one approach that allows our nation's 
students to thrive. Thank you.
                                 ______
                                 
    Thank you, Mr. Chairman.
    Chairman Kline. I thank the gentleman. I will now recognize 
Mr. Hinojosa of Texas, for any opening remarks he may have.
    Mr. Hinojosa. Thank you, Chairman Kline. Is this mic on?
    Chairman Kline. I think so, yes.
    Mr. Hinojosa. Can you hear me in the back? Thank you. I 
want to thank the chairman for hosting this field hearing to 
discuss ways in which to improve State and local delivery of 
career and technical education programs through the 
reauthorization of the Carl D. Perkins Career and Technical 
Education Improvement Act of 2006. Furthermore, I wish to thank 
Congressman Joe Heck for inviting us to his district and to 
hear this panel so that we can better understand the 
educational programs in this area and see how we can be of help 
to you.
    In my view, a bipartisan reauthorization of the Perkins Act 
would ensure that students are equipped with the education and 
skills to succeed in a rapidly evolving 21st century economy. 
Above all, a bipartisan reauthorization of Perkins must 
prioritize equity of opportunity for all public school students 
to participate in and to benefit from career and technical 
education programs.
    As you know, many of our Nation's DREAMers participate in 
CTE programs through public secondary schools, but cannot fully 
utilize this education and training because their immigration 
status bars them from doing so. While congressional Democrats 
are committed to comprehensive immigration reform and passing 
the DREAM Act, the Republican majority has stalled these 
efforts. As mentioned by Congressman Scott in his remarks, most 
recently the House majority has also passed bills seeking to 
undermine deferred action for childhood arrivals under DACA, an 
executive order issued by President Obama that allows thousands 
of undocumented students to work and remain in the United 
States.
    Today I urge my colleagues on the other side of the aisle 
to listen closely to Alan Aleman's testimony, to open up their 
hearts and minds, and to demonstrate compassion for the 
thousands of hardworking DREAMers who know America as their 
home and are determined to contribute to our Nation's economy 
and workforce. I look forward to hearing our expert panelists 
so that I can better understand the successes achieved here in 
Nevada.
    With that statement, Chairman Kline, I yield back my time.
    [The statement of Mr. Hinojosa follows:]

Prepared Statement of Hon. Ruben Hinojosa, a Representative in Congress 
                        from the State of Texas

    Thank you, Chairman Kline, for hosting this field hearing to 
discuss ways in which to improve state and local delivery of career and 
technical education programs through the reauthorization of the Carl D. 
Perkins Career and Technical Education Improvement Act of 2006.
    In my view, a bipartisan reauthorization of the ``Perkins'' Act 
would ensure students are equipped
    with the education and skills to succeed in a rapidly evolving 21st 
century economy.
    Above all, a bipartisan reauthorization of Perkins must prioritize 
equity of opportunity for all public school students to participate 
in--and benefit from - career and technical education (CTE) programs.
    As you know, many of our nation's DREAMERs participate in CTE 
programs through public secondary schools, but cannot fully utilize 
this education and training because their immigration status bars them 
from doing so.
    While Congressional Democrats are committed to comprehensive 
immigration reform and passing the DREAM Act, the Republican majority 
has stalled these efforts.
    Most recently, the House majority has also passed bills seeking to 
undermine the Deferred Action for Childhood Arrivals (DACA) program, an 
executive order issued by President Obama that allows thousands of 
undocumented students to work and remain in the United States.
    Today, I urge my colleagues on the other side of the aisle to 
listen closely to Alan Aleman's testimony, to open up their hearts and 
minds, and to demonstrate compassion for the thousands of hard working 
DREAMERs who know America as their home and are determined to 
contribute to our nation's economy and workforce.
                                 ______
                                 
    Chairman Kline. I thank the gentleman. I expect to be 
joined some time during the hearing by two of our colleagues 
from Nevada, I think Ms. Titus and Mr. Horsford.
    In the meantime, pursuant to committee Rule 7(c), all 
committee members will be permitted to submit written 
statements to be included in the permanent hearing record. And 
without objection the hearing record will remain open for 14 
days to allow statements, questions for the record, and other 
extraneous material referenced during the hearing to be 
submitted in the official hearing record.
    [The information follows:]
    [The statement of Mr. Kline follows:]

Prepared Statement of Hon. John Kline, Chairman, Committee on Education 
                           and the Workforce

    Our economy faces many challenges. Millions remain out of work, and 
the labor participation rate has declined to thirty-year lows. Here in 
the Silver State, families struggle with 8.8 percent unemployment - one 
of the highest unemployment rates in the country. Unemployment among 
young people ages 16 to 19 is even higher, at 29 percent.
    We need to do more to help these families rebuild and recover from 
the lingering effects of the recession. One of the House Education and 
the Workforce Committee's priorities for the 1113th Congress has been 
strengthening the nation's network of job training services. Last year, 
the House approved the Supporting Knowledge and Investing in Lifelong 
Skills Act, legislation to revamp the federal workforce development 
system and help more workers learn in-demand skills.
    The committee is now examining career and technical education, or 
CTE, in preparation for the upcoming reauthorization of the Perkins 
Act. As you may know, the Perkins Act provides federal funding to 
states to support CTE programs that allow high school and community 
college students to access valuable training programs and hands-on 
experience necessary to gain an edge in the local workforce.
    There are a number of great CTE schools in Nevada, and we're 
fortunate to be holding today's field hearing at one of the best. The 
Southwest Career and Technical Academy is renowned for its rigorous 
coursework and hands-on training in a number of fields, including 
nursing, culinary arts, automotive technology, and web design, just to 
name a few.
    I believe my colleagues and I have the opportunity after the 
hearing to take a tour of the school, and I look forward to meeting 
with students, visiting the classrooms, and seeing firsthand the 
quality training available here at the academy.
    As the committee works to strengthen career and technical 
education, it's important we hear from students, educators, and state 
and local leaders in the business and education communities about the 
challenges and opportunities facing CTE programs. Your feedback helps 
inform and strengthen our work in Washington, and we are grateful for 
your participation and your input.
                                 ______
                                 
    Chairman Kline. It is now my pleasure to introduce our 
distinguished panel of witnesses, starting with Ms. Felicia 
Nemcek. She is the principal of the Southwest Career and 
Technical Academy, and our hostess, which opened in August 
2008. Dr. Michael Spangler is the dean of the School of 
Advanced and Applied Technologies at the College of Southern 
Nevada. Ms. Kacy Qua is the founder and chief executive officer 
of Qualifyor, a for-profit startup that pairs skilled young 
apprentices with clients, such as MGM and Zappos to complete 
technical and creative projects. Mr. Alan Aleman is a student 
at the College of Southern Nevada. He graduated from the 
Southeast Career and Technical Academy in 2010. Professor 
Angela Morrison is a visiting professor at the William S. Boyd 
School of Law at the University of Nevada, Las Vegas. And Mr. 
Frank Woodbeck is the director of the Department of Employment, 
Training, and Rehabilitation for the State of Nevada. Welcome 
to you all.
    Just a little reminder on how our lighting system works 
here. We have to get used to it ourselves because this is a 
field setup. As I recognize you, you will each have 5 minutes 
to present your testimony. When you begin, this light in front 
of you will turn green. When one minute is left, the light will 
turn yellow, and when your time has expired, the light will 
turn red, at which point I would ask you to wrap up your 
remarks as best you are able. After everyone has testified, 
members will each have 5 minutes to ask questions of the panel, 
and we will do our best to remember to orient those lights over 
here as we move down that way. If you cannot see it, send us a 
signal.
    I would now like to recognize Ms. Nemcek for 5 minutes. You 
are recognized.

 STATEMENT OF FELICIA NEMCEK, PRINCIPAL, SOUTHWEST CAREER AND 
              TECHNICAL ACADEMY, LAS VEGAS, NEVADA

    Ms. Nemcek. Thank you Chairman Kline, Member Heck, and 
members of the Committee. It is an honor and a pleasure to 
share with you my perspective on the importance of career and 
technical education and its relevance to our economy.
    My name is Felicia Nemcek, and I am the founding principal 
of the Southwest Career and Technical Academy here in Las 
Vegas, Nevada. We are part of the Clark County School District, 
the 5th largest district in the Nation. We are one of seven 
career and technical academies in southern Nevada, and we are 
modeled after our community's original vocational high school, 
now known as the Southeast Career and Technical Academy. After 
30 years of continuous high graduation rates from Southeast, 
our school district and community leadership developed a vision 
to build upon this success by opening more career and technical 
academies in different parts of the Las Vegas Valley, providing 
more access to students.
    Here at Southwest Career and Technical Academy, we have 
1,475 students enrolled in 11 different programs. For the last 
3 years, we have been recognized as an Apple Distinguished 
School for our innovative use of educational technology. And 
over the last 2 years, we have been named a Magnet School of 
Excellence by the Magnet Schools of America.
    Since my appointment as principal in August 2008, I have 
become a great advocate of career and technical education 
because of the successes I have witnessed here in my school, in 
Clark County, and across Nevada. From my perspective, we need 
to recognize and support the following. First, the role of the 
principal has changed. We play an important role in economic 
development, and we must develop strong relationships with our 
community. In order to educate 21st century learners and to 
prepare them to be both college and career ready upon 
graduation, we have to value professional development and 
connect with industry experts in order to keep current with 
local trends and demands.
    As a principal, I challenge all students academically to 
ensure that college is achievable. I oversee the integration of 
core content into our CTE courses to make learning relevant, 
but, most importantly, engaging. I provide our teaching staff 
with ongoing and focused professional development, and I ensure 
that all CTE curriculum evolves with the constant, changing 
workplace standards. We can no longer be building principals 
working in isolation.
    Second, educational technology should be a standard in all 
schools and in CTE. Every job is tied to technology, and if we 
are to prepare our students to be workforce ready, they need to 
be educated in a technology rich environment with appropriate 
equipment and software aligned with workplace needs. Here at 
Southwest, we are fortunate to have funding through Carl D. 
Perkins and State grant programs, to provide industry 
appropriate technology as well as the infrastructure that 
supports it.
    I have many examples of why it is important to make this a 
standard, but one of my favorites is a former student named 
Jacob. Jacob struggled to graduate, but despite several 
barriers, he earned his diploma. After graduation in 2012, 
Jacob was able to secure an introductory job as an auto tech 
position at a local dealership. After 3 weeks, Jacob was called 
into the human resources office. He was offered an opportunity 
to train as a hybrid technician because of his ability to adapt 
to the newer technology.
    Third, business and industry partnerships are vital to our 
success. These partnerships provide our schools with advice on 
curriculum, our teachers with professional development, and our 
students with internships and job shadowing opportunities. 
Clark County School District Superintendent Pat Skorkowsky is 
especially supportive of these partnerships and their part in 
moving career and technical education forward. The inclusion of 
community in his plan emphasizes the importance of the role 
business and industry partners play in advancing student 
achievement both in school and in life.
    One example is Jonathan. Jonathan was a student in the web 
design and development program. He graduated last June and 
began an internship with Qualifyor. Shortly after completion of 
his internship, Jonathan was immediately hired by Qualifyor 
because of his solid foundation of IT skills, work ethic, and 
because he is simply amazing. Jonathan plans to continue 
working with Qualifyor while he attends our community college 
and later transfers to the University of Nevada-Las Vegas.
    Ideally all of our CTE students will continue in the same 
career pathway after graduation, but we must recognize that 
some students may not choose to pursue post-secondary options 
in the same field that they are in right now. And this should 
not be considered a failure in Federal accountability systems. 
Regardless of the pathway, during their high school years, they 
have obtained the necessary skills to be employable, they have 
the ability to work in skilled areas and can pay for their own 
college tuition, and they have explored careers prior to 
enrolling in college, which saves a great deal of time and 
money.
    In conclusion, I believe that career and technical 
education is economic development. Fully funding the Carl D. 
Perkins Career and Technical Education Act is essential to the 
continued academic success of our CTE programs and our economy. 
Here in Nevada, we are still recovering from the great 
recession, and through Federal and State support, we have been 
able to sustain our current programs. The success of our 
academies has created a demand from our community for more, 
high quality CTE programs, and we need to build those in our 
comprehensive high schools.
    The key to reviving our economy? First and foremost, 
adequately investing in CTE. Funding at the 2012 pre-
sequestration levels at a minimum, and the removal or revision 
of the hold harmless provision so that Nevada can receive its 
fair share of funding is critical to our State and the 
continuation of our economic growth. And finally, ensuring that 
all students in all high schools have access to high quality 
programs so that they are prepared to contribute positively to 
our economy. Thank you.
    [The statement of Ms. Nemcek follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    Chairman Kline. Thank you.
    Dr. Spangler, you are recognized for 5 minutes.

 STATEMENT OF MICHAEL SPANGLER, PH.D., SCHOOL OF ADVANCED AND 
  APPLIED TECHNOLOGIES, COLLEGE OF SOUTHERN NEVADA, NORTH LAS 
                         VEGAS, NEVADA

    Dr. Spangler. Thank you, Chairman Kline and members of the 
committee. My name is Michael Spangler. I am the dean of the 
School of Advanced and Applied Technologies at the College of 
Southern Nevada. CSN is the largest higher education 
institution in Nevada and one of the largest in the country. We 
offer certificates and degrees in many career and technical 
education disciplines.
    I am grateful for the opportunity to share with you today 
some examples of the interactions between CSN's technical 
education programs and our stakeholders in business and 
government that illustrate our community's commitment to a 
skilled workforce. They also demonstrate the need for continued 
support through the Carl Perkins Career and Technical Education 
Act, and it is our principal tool to stay active partners with 
industry.
    I would like to start with a local perspective. Few States 
have felt the recession as acutely as Nevada, particularly in 
construction, hospitality, and retail. Our constituents want 
fulfilling careers and a family sustainable wage. This requires 
some form of post-secondary technical education whether it is 
through an apprenticeship or, more commonly, the college 
technical program. Collaboration among education and employment 
partners is critical.
    My first example is our electronics program's alliance with 
defense contractor, JT3. The JT3 Jumpstart Program is this. 
Students who pass a six-course sequence in math and electronics 
get an interview with JT3. If they are successful, JT3 will 
hire the students and while on the job, send them back to us to 
finish their associate degree in engineering tech.
    CSN, through Perkins funding, provides state-of-the art 
laboratories that directly relate to the skill sets needed by 
JT3. And additionally, JT3 engineers serve as part-time 
instructors for the program, bringing relevant content to the 
classroom for all of our students. The JT3/CSN partnership 
works.
    Another engineering tech connection is in theater 
technology. CSN works with Cirque du Soleil to prepare 
technicians for the large venue shows on the Las Vegas Strip. 
The technology for a show such as ``O'' at Bellagio requires 
skills in automation controls, hydraulics, pneumatics, 
electrical power, and computer systems. These skills rival 
those at any industrial plant in the country. In fact, the 
knowledge base in technical theater transfers very well to 
Caterpillar, Boeing, or General Electric. The degree at CSN 
exists because Perkins funding equips the laboratories and 
because Cirque du Soleil managers guide the program design and 
host internships for an unparalleled work-based experience.
    The next example I would like to present is a pilot program 
we are offering, cooperation between CSN and Clark County 
School District. Perkins funds underwrite the instructional 
costs for dual credit programs in air conditioning and welding. 
These programs are expensive and extremely difficult for high 
schools to deliver. Our joint program uses the technical 
infrastructure at the college and allows students to 
simultaneously accrue high school and college credit, and 
acquire industry certification.
    My last example is the gas heat pump, GHP, project in air 
conditioning technology. Created by a partnership among the 
college, Department of Energy, Southwest Gas, and IntelliChoice 
Energy, the GHP courses involve natural gas powered heat pumps 
for commercial air conditioning. This innovative equipment uses 
about 80 percent less electrical energy compared than 
conventional cooling systems.
    Understandably, CSN is home to the country's premiere air 
conditioning program. This is, after all, Las Vegas, and our 
local economy depends on ample amounts of cold air and cold 
drinks.
    [Laughter.]
    Dr. Spangler. CSN is the sole provider of skilled 
technicians for this new technology because Perkins funds were 
leveraged with Department of Energy and private industry 
investment.
    Shawn Greene, now a graduate of our program, was hired by 
IntelliChoice Energy. In his words, ``I got the confidence and 
experience I needed at CSN, and it opened doors for me. I love 
my job.'' And I love that comment.
    To conclude, Nevada's job losses place us at or near the 
top of a very undesirable list. My opinion, however, is that 
our unemployment is, to a great extent, an issue of under 
preparation. CSN's high tech, high demand, high wage 
disciplines, such as air conditioning, electronics, IT 
networking, enjoy 100 percent placement. Typically, students 
are working before they finish their degree. I believe the best 
path across our current employment landscape is through career 
and technical education, and Perkins funding remains the life 
blood of those programs.
    I want to thank the committee for your consideration of my 
testimony, and I applaud your continued support of technical 
programs in this country. Thank you.
    [The statement of Dr. Spangler follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairman Kline. Thank you.
    Ms. Qua, you are recognized for 5 minutes.

  STATEMENT OF KACY QUA, FOUNDER AND CHIEF EXECUTIVE OFFICER, 
                  QUALIFYOR, LAS VEGAS, NEVADA

    Ms. Qua. Thank you, Chairman Kline and members of the 
committee. I am Kacy Qua, founder and CEO of Qualifyor, a for-
profit downtown Las Vegas based tech startup that prepares 
young people for the workforce by offering a chance to create 
dynamic digital portfolios of project work, compete with teams 
on real client projects, and demonstrate the adaptability, 
technical skills, and soft skills in demand by employers.
    We have been in business a little over a year, but I have 
been involved in professional education and employment 
initiatives for the past decade. My passion for this space 
stems from my personal path in which I navigated off the 
traditional education path. It started at 13 when I felt that 
school was teaching me to be a good student, a skill that would 
only be relevant as long as I was in school. I wanted to learn 
how to be a good worker, something that would be relevant for 
the rest of my life.
    I eventually chose to return to formal education, and 
entered as an undergraduate at the Cornell University School of 
Industrial and Labor Relations and later as an MBA student at 
the UCLA Anderson School of Management. But I continued to 
struggle with the gap between the very academic learnings that 
were occurring in school and the skills that I felt were needed 
in the workforce.
    This personal experience was combined with professional 
insight when I became a labor rep and consultant for Lockheed 
Martin Space Systems, a public sector labor consultant, and led 
a multimillion dollar prize design aimed at driving 
breakthroughs in education and learning.
    Finally, I started Qualifyor, which aims to aid a large 
number of students in employment readiness. But as a for-profit 
startup, our model is really driven by market demands. This 
training provides a much-needed alternative to the seemingly 
limited options available to most young people, particularly 
those for whom affordability of continued education is a 
concern. More importantly, this type of skill is demanded by 
the modern workforce. Unfortunately, private businesses are not 
able to bear the weight of technical training for all young 
people.
    Today, the speed of technological innovation is 
exponential. Billion dollar companies rise and fall seemingly 
overnight. The things we learn quickly become irrelevant, and 
daily life requires adaptability to ever-changing devices, 
platforms, and technologies. The landscape is not only 
constantly changing, but changing much more rapidly than it 
ever has before. The structure of the current education system 
requires long lead time to approve coursework and curriculum. 
Where we used to have a sense of what jobs would exist in the 
future, we now barely know what will exist a year from now, let 
alone several years from now.
    At the same time, education is decentralizing with various 
online platforms offering e-learning curriculum, improved 
software for learning, hybrid online/offline models, badging 
capabilities, digital portfolios, and other credentialing 
tools. As more individuals opt into the use of these platforms 
and the bachelor's degree ceases to be the only viable 
credential, companies are facing ever greater stacks of 
applicants for whom the quality is uncertain. This means that 
people who have hard evidence of their competency and capacity 
will have an edge in the labor market.
    In the spring of 2012, Zappos CEO and head of the $350 
million downtown project, Tony Hsieh, was thinking about how to 
educate and prepare the local labor ecosystem for a lot of 
investment that he was putting into downtown Las Vegas. And he 
provided seed funding for my company, Qualifyor. I came to Las 
Vegas with its reputation for struggling education and high 
unemployment and began reaching out to educators and employers 
to get a firsthand sight of what was really happening here.
    What I found shocked me. Not only was there great talent 
here, but I also witnessed some of the most progressive 
scalable education programs I had ever seen in the form of the 
career and technical academies. There are great young minds in 
Nevada, but many of them leave the State in favor of better 
employment opportunities and never look back.
    On the other hand, businesses were not interested in making 
hires of unproven young talent that lacked experience. To solve 
the no experience, no job, and no job so no experience problem, 
we needed to find low risk methods for young people to get 
their foot in the door, namely things like competitions and 
project work which resulted in a portfolio to show rather than 
tell what they could do.
    The first school I visited was Southwest Career and 
Technical Academy, and I was completely blown away by the level 
of talent and professionalism I saw in the students. As Felicia 
mentioned, I got to meet Jonathan Cervantes, a web design 
major, who confidently shook my hand, showed me his business 
card, and an impressive portfolio of web design work. A year 
later, Jonathan is here in the audience, and he is an important 
member of our staff managing web, marketing materials, social 
media, IT, business development, and basically on call for 
anything that us older folks do not know how to do.
    While Jon is remarkable, he is not alone. In our 
recruitment process, we have met dozens of incredible young 
people who are leaps and bounds ahead of their peers from an 
employability perspective because they have gone through the 
CTA curriculum and built portfolios of work under conditions 
that mimic the workforce. We had 50 applicants, and we are 
unable to accept any of the comprehensive school applicants, 
not because they are not bright or passionate, but because they 
lacked the portfolio that companies require in order to work 
with young people.
    The product of our education system currently is not 
developed with the customer in mind, meaning employable 
graduates are not available going into the workforce. A school 
that intends to prepare students for collegiate success will 
utilize different curriculum than a school preparing students 
for the workforce.
    I commend the CTAs and all of you for your work in funding 
these incredible types of programs, and hope that as you make a 
consideration around this, you think about optimizing the 
output of education to benefit the companies that exist in the 
country. Thank you.
    [The statement of Ms. Qua follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairman Kline. Thank you.
    Got to get your microphone there. Mr. Aleman, you are 
recognized for 5 minutes.

STATEMENT OF ALAN ALEMAN, STUDENT, COLLEGE OF SOUTHERN NEVADA, 
                    NORTH LAS VEGAS, NEVADA

    Mr. Aleman. Chairman Kline, Mr. Scott, and members of the 
Committee, thank you for inviting me here today to tell my 
story. My name is Alan Aleman, and my American Dream began when 
I came to this country at the age of 11. Many opportunities 
came into my life. I can say, in my own opinion, that I 
attended one of the best high schools here in southern Nevada, 
Southeast Career and Technical Academy, SECTA High School.
    My parents came to this country looking for a better future 
and education, and that was what SECTA High School gave me. 
SECTA High School not only gave me an education, but also gave 
me the necessary tools to succeed in life and in my career. I 
applied to SECTA High School because one of my dreams is to 
become a doctor. SECTA had a medical program that I knew would 
be great for my career. When I received my acceptance to SECTA, 
I was very enthusiastic. I felt like I was finally reaching my 
goals.
    My freshman year was amazing. I felt welcomed and 
appreciated. I came across teachers that cared about me and my 
future. They would always be there for me for any questions, 
and they would never criticize me for being undocumented. 
Instead, they pushed me to pursue my dreams.
    Unfortunately in my sophomore year I got the sad news that 
I was not going to be able enroll into the medical program 
because of the lack of nine digits, a social security number. 
Due to this setback, I decided to change to the business 
program instead, which was office technology, and I do not 
regret it whatsoever.
    While I was a business major, there were many internships 
available to students that involved my career and technical 
skills. I knew I was capable, but many of the internships 
required a social security number, and without authorization to 
work, I could not participate. It was sad to see that many of 
my U.S. citizen friends were taking advantage of these 
opportunities, and I was not. I was, however, able to obtain 
certifications that I knew were going to help me in an office 
job: Microsoft Office Application Specialist in Word, Excel, 
and PowerPoint. These are certifications that many office 
employers would seek in a potential employee.
    I was excited that I graduated from high school in 2010, 
but skeptical. I knew I had the necessary skills to obtain a 
good job where I could utilize my certifications, but because 
of my immigration status, I could not be employed in a job like 
that. Despite that, I was determined to pursue college. Luckily 
in the State of Nevada, I can go to college without a social 
security number. I have to go part time due to working full 
time because I am not eligible for financial aid due to my 
immigration status. After I graduate from college, I hope to go 
on and become a doctor and someday be in the Air Force to serve 
my country.
    In 2011, I became an executive board member of the Latino 
Youth Leadership Alumni, the LYLA, to represent them at the 
Latin Chamber of Commerce as a board member. At the beginning I 
was nervous because I knew it was a professional environment, 
but I knew I was ready thanks to what I learned at my SECTA 
High School. In 2010, I was voted to be the youth board member 
at the Southern Nevada American Red Cross Chapter. I still 
serve on all three boards, and I know I have been successful in 
these professional settings due to the skills I learned at 
SECTA.
    On October 17, 2012 I was approved for DACA, which changed 
my life. I was partially given the opportunity to live without 
fear, get a decent job, and finally obtain something that I saw 
my friends getting in high school, a driver's license. 
Hermandad Mexicana Transnacional offered me a job, in which I 
was finally applying the skills I learned at SECTA in a real 
job. Prior to DACA, I was not working in a job like this.
    DACA is temporary and not sufficient. I still do not know 
if I am going to be able to enroll in medical school, and DACA 
does not give me a path to citizenship. We need a common sense 
approach to fix these problems. DREAMers and families are tired 
of seeing and listening to unsupportive excuses just to avoid 
this topic. Many U.S. citizen students cannot concentrate at 
school because they are afraid of their parents being removed 
from this country.
    It is sad to see that many in the House of Representatives 
say they support DREAMers, but yet they vote against us, and 
that puts DACA at risk over and over. I loved being a student 
at SECTA, but what good is it to learn the skills and then have 
no options to go forward with my dreams? I think Congress 
should support schools like SECTA and other schools through the 
Perkins Career and Technical Education Act.
    It is heartbreaking that many families are being separated 
by this Administration and because some members care more about 
their political affiliation than what the American people want: 
a path to citizenship. Members of this committee, I would like 
to ask you to take action on this matter instead of 
perpetuating it. Many dreams, futures, and families depend on 
you. Do it for the greater good of this country, the United 
States of America.
    Again, I want to thank you for the opportunity to testify 
before you and to express my career and technical education 
here in Clark County School District, and, more importantly, on 
the need for congressional action on the DREAM Act and on 
comprehensive immigration reform.
    [The statement of Mr. Aleman follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    Chairman Kline. Thank you.
    Professor Morrison, you are recognized for 5 minutes.

 STATEMENT OF ANGELA MORRISON, VISITING PROFESSOR, WILLIAM S. 
  BOYD SCHOOL OF LAW, UNIVERSITY OF NEVADA, LAS VEGAS, NEVADA

    Ms. Morrison. Good afternoon. I thank Chairman Kline and 
the Committee for inviting me to testify this afternoon. I 
commend the committee for its focus on such an important topic.
    While programs under the Perkins Career and Technical 
Education Act provide a means for State and local leaders to 
develop programs that encourage successful transitions from 
secondary training to post-secondary training to careers for 
many young people, a substantial number of young people stall 
at the secondary level due to their own immigration status or 
that of their parents. By not providing a method for these 
young people or their parents to regularize their immigration 
status, the United States is squandering the enormous 
contributions that these young people could make to the United 
States.
    Children in the United States have the right to a public, 
K-12 education regardless of their immigration status. However, 
three aspects of our current immigration system means that some 
young people in whom we have invested are left out in the cold 
when it comes to further developing their skills through post-
secondary education and transitioning into the workforce. 
First, and perhaps most obvious, young people who are 
unauthorized are unable to work in the wake of legislation 
passed in the 1986 Immigration and Reform Control Act, which 
made hiring unauthorized workers a crime.
    The Deferred Action for Childhood Arrivals Programs program 
allows some young people to temporarily overcome the challenge 
of work authorization because approval under the program comes 
with work authorization for a period of 2 years. Around 1.09 
million young, unauthorized immigrants meet the age, entry, and 
eligibility requirements of DACA, and United States Citizenship 
Services has approved over half a million applications. 
Nonetheless, DACA bestows no immigration status, and is merely 
an exercise of the Administration's prosecutorial discretion 
authority.
    Second, unauthorized immigrant youth, even those with DACA, 
face tremendous challenges in obtaining post-secondary 
education and training. It is up to individual States whether 
to grant in-State tuition to unauthorized students or even 
allow unauthorized students to enroll. And when unauthorized 
immigrants do enroll, they are unable to access Federal 
financial aid, including, grants, loans, and work study 
programs.
    Finally, the United States immigration system negatively 
impacts the educational and career opportunities of U.S. 
citizen children whose parents are unauthorized. An estimated 
4.5 million United States citizen children have an unauthorized 
immigrant parent. And from 2010 to 2012, DHS effected 204,810 
removals that involved the parents of U.S. citizen children. 
The removal of a United States citizen child's parent can 
result in the de facto removal of that child. The immigration 
arrest or removal of a parent can also impact the child's 
ability to successfully participate in school.
    Through my work supervising student attorneys at UNLV Law 
School's Thomas and Mack Legal Clinic, I have assisted young 
people who are unauthorized immigrants and interacted with 
young U.S. citizens whose parents are facing removal. The 
experiences of two young people illustrate the challenges our 
immigration laws pose to the successful transition from 
secondary education to post-secondary education and careers.
    Yesenia's parents brought her to the United States when she 
was only 18 months old. Yesenia was an outstanding student even 
as early as elementary school. She had dreamed of attending 
college ever since she was young, and her family encouraged her 
dream. She found out that she had no immigration status when 
she was only 9 years old. Despite her unauthorized status, 
Yesenia was able to complete high school and enroll at UNLV. 
She graduated magna cum laude in 2010, and remarkably she was 
able to do this despite a lack of Federal financial aid or 
work. The clinic eventually was able to get Yesenia DACA in 
June of 2012, and she received deferred action. Importantly, 
she received work authorization for a period of 2 years.
    Johan is a United States citizen, but both of his parents 
were present in the United States without authorization. The 
clinic met Johan when ICE sought to remove his mother. When 
Johan was 13 years old and a successful middle school student 
achieving high grades, ICE removed his father from this 
country. Within the next few months, his mother suffered a 
stroke, they lost their family home, and then ICE picked up his 
mother. Needless to say, Johan's grades plummeted, and he 
experienced almost debilitating stress and anxiety over the 
possible removal of his mother. The clinic was able to obtain a 
temporary stay. He is now 15 years old, doing well, and in 
ROTC, and has an interest in becoming a software engineer.
    The removal of young, unauthorized immigrants like Yesenia, 
the de facto removal of United States citizen children like 
Johan, and the lack of opportunity for unauthorized young 
people who remain without the ability to work or enroll in 
post-secondary education and training programs represent a gap 
in the United States career and technical education programs 
that can only be addressed through immigration reform. Any 
legislation or policies that this committee considers must take 
account of this in order to truly revive our economy. Thank 
you.
    [The statement of Ms. Morrison follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    Chairman Kline. Thank you.
    Mr. Woodbeck, you are recognized for 5 minutes.

STATEMENT OF FRANK R. WOODBECK, DIRECTOR, NEVADA DEPARTMENT OF 
  EMPLOYMENT, TRAINING, AND REHABILITATION, LAS VEGAS, NEVADA

    Mr. Woodbeck. Good afternoon, and thank you, Chairman 
Kline, Congressman Heck, Congressman Titus, and members of the 
committee. Thank you for inviting me here today to discuss 
career and technical education and training programs that 
promote industry alignments to strengthen the economy and 
workforce in Nevada.
    I am Frank Woodbeck. I am director of the Department of 
Employment, Training, and Rehabilitation, also known as DETR. 
DETR's mission is to provide Nevada's businesses with access to 
a qualified workforce, support the career and training goals of 
job seekers, and encourage equal employment opportunities for 
all Nevadans, including those with disabilities. In unification 
with that mission, DETR continues to seek innovative ways to 
carry out its historic safety net responsibilities even more 
intently in response to the great recession that our Nation 
endured throughout the past 7 years.
    Governor Sandoval recognizes the department as the 
architect that designs and promotes collaborations with 
Nevada's Department of Education, Nevada System of Higher 
Education, also known as NSHE, including the community 
colleges, the Governor's Office of Economic Development, and 
the school districts to deliver pathways for careers and 
vocations to the unemployed, underemployed, and yet to be 
employed citizens of Nevada. Nevada's career and technical 
academies, signature academies, and STEM-related magnet schools 
play a vital role in our efforts to promote high demand 
occupations to youth who will be entering the workforce over 
the next decade.
    DETR serves as the State's workforce development arm, 
providing numerous labor-related services through its 
divisions. DETR manages 10 Nevada JobConnect offices, which 
provide job seekers with resources for job searching, skills 
assessment and training, and provides employers with assistance 
in finding qualified employees. Thousands of job seekers 
utilize the JobConnect centers daily, while business service 
representatives serve employers by offering space for hiring 
events, access to tax incentives, and resources related to on-
the-job-training programs.
    When the great recession hit in 2007, demands for DETR's 
services ramped up exponentially. When Governor Sandoval 
assumed office, he realigned economic development efforts and 
quickly brought DETR into the fold as a major contributor to 
economic development activities. If Nevada is to survive 
another economic downturn in the future, it must focus on 
attracting a diverse cadre of industries to do so. And in order 
to do so, it must have a skilled workforce in place that can 
sustain a globally competitive economy.
    GOED, or the Office Economic Development, commissioned a 
study of Nevada's economy by the Brookings Institute. Findings 
concluded that Nevadans needed to focus on nine sectors for 
economic development and workforce expansion. From this study 
and with legislative action, DETR formed the Governor's 
Workforce Investment Board's industry sector councils to 
initiate workforce development activities in these sectors that 
include high demand occupations of the future. These industry 
sectors include: healthcare and medical services; clean energy 
and sustainability; tourism, gaming, and entertainment; 
aerospace and defense, information technology; logistics and 
operations; mining and materials; agriculture; and 
manufacturing.
    Utilizing the findings of the industry sector councils, the 
Governor's Board provides guidance to the local workforce 
boards for investment of Workforce Investment Act funding in 
training for the unemployed, underemployed, and young adults.
    Each industry sector council is designed to number 
approximately 22 to 25 volunteer members, and at least 51 
percent of the membership comes with being business executives 
coming from those the industry sectors, including CEOs, COOs, 
and human resource executives. These industry sector councils 
are a component of a historic collaboration between the 
Governor's Workforce Investment Board, the Economic Development 
Board, DETR, and the higher education, and will yield 
investment and workforce training and development that will 
serve Nevada's industry growth of today and the future.
    All of the industry sector councils have established 
strategic plans, and are underway with initiatives to support 
growth within their respective sectors. For example, the 
healthcare sector and medical services sector have planned a 
workforce investment summit for April 8th to bring together 
various stakeholders from across the State for input on current 
and future workforce demands to best prepare for an adequate 
supply of healthcare workers to meet healthcare delivery needs 
in Nevada. Additionally, on the healthcare front, the Robert 
Wood Johnson Foundation awarded Nevada a $150,000 planning 
grant for the Future of Nursing State Implementation Program to 
help prepare nursing professionals to address healthcare 
challenges.
    In 2013, the Nevada legislature passed SB 345 and codified 
the formation of the Nevada STEM Advisory Council, of which I 
am a member. The purpose of the council is to develop a 
strategic plan for the development of educational resources in 
the disciplines of science, technology, engineering, and 
mathematics to serve as a foundation for workforce development, 
college preparedness, and economic development for the State. 
Nevada is experiencing a significant shortage in the workforce 
for those STEM-related skills.
    Career and technical education in Nevada is organized under 
16 nationally recognized career clusters. And the basis of CTE 
is the course sequence commonly known as the CTE program. There 
are over 70 CTE programs in secondary education here with 
career pathways ranging from health sciences to information 
technology. In Nevada, more than 50,000 students in grades nine 
through 12 are enrolled in CTE courses. In the 2012 to 2013 
school year, Nevada's cohort graduation rate was 70.65 percent. 
For students who earned two or more credits of CTE coursework, 
Nevada's cohort graduation rate was 87.75 percent.
    DETR recently partnered with the NSHE and community 
colleges statewide to open Nevada Workforce Development Centers 
in support of Nevada's economic development efforts. The first 
center opened last fall at the College of Southern Nevada at 
the Cheyenne campus. Now, these centers are part of our vision 
to bring education and workforce development together to help 
advance economic development throughout the State.
    I would like to thank the committee for its attention this 
afternoon and for allowing me to submit this particular 
testimony. Thank you very much.
    [The statement of Mr. Woodbeck follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Chairman Kline. Thank you, sir. I thank all the witnesses 
for your testimony. We will move now to member questioning. I 
would advise my colleagues that we are running late. We got 
started a little late, and we are running late, so I will have 
to insist on keeping within the time limit.
    Ms. Nemcek, let me start with you again, and thank you 
again for hosting here. In your testimony, you talked about the 
changing role of the principal and you were very clear and 
eloquent, in fact. I am trying to understand what kind of 
contact you have now with businesses directly. Is that part of 
what you are doing?
    Ms. Nemcek. Yes. With each of the different program areas, 
we have advisory boards. And so, we are bringing in business 
and industry professionals from each of those areas. And we 
bring them in. We meet with them regularly on advisories, and 
we have to do this two or three times a year to ensure that our 
curriculum is relevant to what is happening in their fields.
    Chairman Kline. Okay. Can you adapt your curriculum then 
pretty quickly?
    Ms. Nemcek. The CTE curriculum is a State curriculum, but 
it does allow a little bit of flexibility for us to adapt. When 
it does become evident that we need to make changes or look at 
a different pathway, we do work closely with our own school 
district, career tech department, and our State Department of 
Education to build that curriculum.
    Chairman Kline. Okay. I want to continue on that same theme 
of adapting. Ms. Qua, in your testimony, you talked about the 
time to develop a new program and then to scale it up. What is 
your sense of how long does it take you or how long does it 
take the schools to see a new need and then start up a program 
or scale up a program to meet that need?
    Ms. Qua. So I cannot really speak to what the time is for 
particular schools. I think it is different depending on the 
level of education, whether that is K through 12 or university. 
But in terms of with Qualifyor, we have been trying to build a 
really agile model where every bit of curriculum that we have 
developed is directly based on what companies have said they 
need in terms of skill sets.
    And so, you know, it is not to say that all education 
should be completely driven by employer demands, but I think at 
least a part of every education should integrate the changing 
needs. And in particular the things that employers have spoken 
to us about and sort of sought and not found in young people 
would be, first of all, adaptability, self-awareness, the 
technical skills of course, but also things like problem 
solving.
    And so, some of the softer skills sets, which I think 
Southwest does a really great job of teaching, and that 
regardless of the career that you go into or what your major 
is, these are things that should be brought into the curriculum 
and taught to students starting at a very young age.
    Chairman Kline. Okay. Dr. Spangler, Ms. Qua mentioned 
differences in the schools. And so, I am interested in your 
thoughts about the differences between secondary and post-
secondary CTE, and should there be a better mesh. Do they need 
to be kept apart? How does that difference apply to Ms. Qua's 
answer?
    Dr. Spangler. Well, the differences apply only in terms of 
the direct applicability to business and industry. Our programs 
are directly responsible to the local employment needs. As far 
as the interlacing of our programs with the secondary programs, 
that is an absolutely essential component.
    The transition of a student from a CTE program at the high 
school to our CTE programs should be nearly seamless. And in 
order to do that, we have employed several tools, the most 
prominent of which is tech prep, a function of the Perkins 
process, in fact, where students can acquire credit from us for 
courses that they are taking in high school. We have matched 
content and outcomes, and we do our best to try to encourage as 
much interconnectivity as we can there.
    Chairman Kline. Okay. Thank you. I see my time is about to 
expire. Mr. Scott?
    Mr. Scott. Thank you, Mr. Chairman. Ms. Morrison, what 
reason would students have not to sign up for DACA?
    Ms. Morrison. In my opinion, at least here in Nevada, there 
are probably about three reasons why students might not be 
applying for DACA. One might be that they are not eligible. But 
assuming that they are eligible, a lot of what could be driving 
it is the fact that a lot of young people are afraid to apply 
because they are afraid it will bring them to the attention of 
immigration authorities, and it only provides temporary relief. 
So they have no guarantee that once they do get the DACA relief 
that they are going to be able to renew it.
    Mr. Scott. Mr. Woodbeck, what effect does a person's status 
as a DACA status have on their career options?
    Mr. Woodbeck. I would have a difficult time answering that 
question. I really do not know, sir.
    Mr. Scott. Mr. Woodbeck. Ms. Qua mentioned credentials. In 
the food service or hospitality area, are there credentials you 
can get that would help an employer be able to quickly evaluate 
what you can do and what you cannot do?
    Mr. Woodbeck. Absolutely.
    Mr. Scott. And could you give some examples of that?
    Mr. Woodbeck. Well, in the hospitality area, there are high 
schools and also community colleges that have programs within 
hospitality that train in the hospitality arena, as well as 
Nevada partners, for example, that also train. I think you 
mentioned two of our Nevada partners today--Culinary Institute. 
And so, those credentials are used to evaluate.
    Mr. Scott. So in the hospitality area in terms of 
bartending, you would know exactly where you would be in the 
continuum of possibilities, and he could hire you for exactly 
what you wanted to do, is that right?
    Mr. Woodbeck. Right, and they would have to have certain 
credentials to be hired and remain hired, sure.
    Mr. Scott. Mr. Spangler, you mentioned the transition 
between high school and college. Are we making sure that we do 
not get high school students in a vocational and educational 
rut so that in 12th grade they cannot change their mind and go 
to a traditional 4-year college?
    Dr. Spangler. The transition is available. That is, 
students who pursue a particular technical program in high 
school can elect to adjust that. Our experience has been that 
students do make changes of course. Many of us made 
undergraduate changes. But we found that they rarely change 180 
degrees; that is, a student in computer aid graphic design may 
find another design or computer-related field. And we try to 
adapt the credit or credentials that they may already have to 
those programs.
    Mr. Scott. Well, you mean, you do not want to get somebody 
in a situation where they do not have the credits. The option 
of a 4-year college is not eliminated because they got in a 
vocational educational rut and could not change their mind.
    Dr. Spangler. We are right now building new pathways for 
people who are career and technical students. I can pick on 
some areas in particular, electronics, for example. An 
electronics student who pursues our associate of applied 
science degree has historically been capped at that 2-year 
associate's in applied science.
    We are right now working on bachelor of applied science or 
bachelor degree pathways for those students with other 
institutions in the State, private and public.
    Mr. Scott. Thank you. Ms. Nemcek, Mr. Woodbeck mentioned 
higher graduation rates of people involved in this education. 
Can you say a word about the effect it has on attendance?
    Ms. Nemcek. Well, the effect that we have here in our 
school and with career technical students is that it is much 
higher than the average student that is not in career technical 
education. Currently we sit at 96 percent or higher average 
daily attendance in all of our career technical academies.
    Mr. Scott. Which is much better than traditional high 
school.
    Ms. Nemcek. Yes.
    Mr. Scott. Mr. Woodbeck, there is a question of whether we 
are going to have continued formula grants or competitive 
grants. Can you say a word about what you would prefer in terms 
of Perkins funding?
    Mr. Woodbeck. I would prefer broad flexibility that would 
allow us to apply the grant money in a formula that would allow 
us to apply the grant money where it is needed and where it can 
be of most use for this particular State.
    Mr. Scott. As opposed to competitive where you might get 
funding or you might not?
    Mr. Woodbeck. Correct.
    Chairman Kline. The gentleman's time has expired. Dr. Heck?
    Mr. Heck. Thanks, Mr. Chairman, again. Thanks to all the 
witnesses for participating today. You can see why I was so 
excited to have the hearing here in our district. I could not 
be prouder of the accomplishments of schools like Southwest 
Career Tech or the community colleges in the career and 
technical education programs.
    You know, I think, Ms. Nemcek, you brought up a good point 
about allowing the students to follow a different career path 
even after going through a CTE program if they ultimately 
decide they want to do something else. And I could see how the 
benefit of CTE, no matter what they did afterwards, especially 
if we just use an example the three students we chatted with 
before we came in. I mean, they are all much more articulate, 
poised, self-confident, and have great self-presence and 
interpersonal skills, which will serve them well no matter 
where they go.
    You know, we have talked a little bit about the potential 
funding issues. You mentioned it, and I mentioned it in my 
opening comments. Could you speak to the impact the nearly 50 
percent cut to the Nevada CTE formula funding which is proposed 
in the President's budget for Fiscal Year '15 could have on 
your ability to maintain the success you have achieved here at 
Southwest?
    Ms. Nemcek. Sure. As all of you are aware, it is extremely 
expensive to continue to upgrade software and hardware and to 
keep current with all the different changing technology in 
every single field. And so, if we were to experience such a 
cut, we already share in the grant money across the State. And 
less money would also mean that we would also have to start 
making cuts to each program and having to make some hard 
decisions, and those are just decisions that we cannot afford 
to make if we want to continue to grow and to create students 
that are job ready, career ready right out of high school so 
that they have the best chance of being successful in college 
and in our own economy.
    Mr. Heck. I am sure that when we take the tour, the members 
will be able to see the capital intensiveness of the 
infrastructure in a CTA when we go out to the auto tech or in 
the culinary arts. A lot of equipment that is very expensive is 
necessary to make sure that other students have the educational 
opportunities.
    Dr. Spangler, how would the proposed cut I mentioned in my 
question to Principal Nemcek impact CTE education at the 
College of Southern Nevada? Specifically, would it impact your 
ability to collaborate with the Clark County School District as 
you mentioned in your written testimony?
    Dr. Spangler. Perkins is our lifeblood, as I said earlier. 
A sizable cut of that nature would be devastating. Career and 
technical programs are not cheap dates. We definitely require 
high end and, in many cases, state of the art equipment because 
the training we prepare these students for are frequently life 
and death.
    We cannot afford to half step on the quality and the 
currency of equipment, software, and other tools that we use. I 
do not want to be out on the I-15 with brakes that do not work, 
nor with technicians that have not been properly schooled on 
how to keep those brakes working. It is an important 
consideration, and particularly since so many of these areas 
are critical, are indeed life and death areas.
    We teach programs that quite literally mean the survival 
not only personally, but of the industry and businesses in this 
area. And we cannot keep up with industry demands and the high 
turnover of technology without a steady infusion of funding 
from Perkins. And, frankly, although our industry partners are 
very generous, they cannot keep up without our contributions, 
our work in Perkins there.
    Mr. Heck. Thank you. Director Woodbeck, as you know, the 
biggest problem facing our community in southern Nevada is the 
lack of good, high paying middle class jobs. Yesterday I had a 
job fair. About 400 people attended looking for jobs. Can you 
expand on how CTE programs, like those here at Southwest, that 
are training our students for in-demand jobs will attract new 
and diverse industries to our State creating those high paying 
jobs and inoculating our State from future economic downturns?
    Mr. Woodbeck. Sure. As we attract business to the State, 
the first question they ask is do we have a qualified 
workforce. And we have been fortunate thus far, but what the 
career and technical academies give us is the foundation for a 
qualified workforce since the foundation of a lot of the 
training they receive here puts them in line for various 
certificate programs, the very certificates of achievement in 
various aspects of their skill training, if you will, say, 
machining, et cetera, which would allow for their hiring either 
out of high school or immediately after achieving another 
certificate beyond that and what are called stackable 
credentials. So it puts them in line for that.
    Mr. Heck. Thank you. Thank you, Mr. Chair. Yield back.
    Chairman Kline. Thank you, Dr. Heck. Mr. Hinojosa, you are 
recognized.
    Mr. Hinojosa. Thank you, Mr. Chairman. And my first 
question is to Mr. Woodbeck. Mr. Woodbeck, did you know that 
the--or rather maybe I should first say let the record show and 
give clarification that the cut to the Nevada funding is not 
proposed in the President's budget. And having said that, my 
question to you is, what was the impact of sequestration on 
Nevada CTE program delivery, and what, in your opinion, is the 
appropriate funding level for Perkins?
    Mr. Woodbeck. Okay. The Perkins funding is actually within 
the realm of the community colleges here and the Department of 
Education, which I do not oversee. We participate in the use of 
those funds and how those funds are used in deciding that, but 
we do not oversee the funds themselves.
    To get to another point regarding your question regarding 
sequestration, that hurts. I mean, any funding that we can 
receive and apply to training we would want to do that.
    Mr. Hinojosa. Can you please speak to the impact of 
Nevada's DREAMers population on the State economy?
    Mr. Woodbeck. That I could not speak intelligently to, no, 
I could not, sir.
    Mr. Hinojosa. Then I will ask my next question to Ms. Qua 
as founder and CEO of Qualifyor. Do DREAMers have the 
opportunity for apprenticeship programs like with Ford and 
General Motors?
    Ms. Qua. I am not an expert on the DREAM Act, so I prefer 
not to answer any questions about it.
    Mr. Hinojosa. Dr. Spangler, is that available?
    Dr. Spangler. I am sorry, Mr. Hinojosa, I have no great 
knowledge of the effect of the DREAM Act.
    Mr. Hinojosa. Does anybody on the panel have an answer to 
my question? I have a community college, South Texas Community 
College, and I went and visited representatives of Ford Motor 
Company, and I also went to visit representatives of General 
Motors and told them that in my area we had lots of Latinos 
that were very good with automobiles, but we needed to upgrade 
them to apprentices. And they brought the apprenticeship 
program, and it is working beautifully. When they graduate as 
an apprentice, which takes about 5 years, they are in the 
$100,000 range in their salaries, and that seems like something 
that would work very well.
    So my next question would be to Alan Aleman. Alan, thank 
you for your courage and your determination. In your testimony, 
you indicated that you would like to be a doctor.
    Mr. Aleman. Yes.
    Mr. Hinojosa. Can you tell us why you could not enroll in 
the medical program at Southeast Career Technical Academy?
    Mr. Aleman. Yes, because in order to get the license on the 
health occupation that SECTA had, you needed a social security 
number to get certified.
    Mr. Hinojosa. Have there ever been through the director of 
the Governor's Office of Economic Development a waiver given to 
somebody as bright and capable as you?
    Mr. Aleman. Can you repeat the question, please?
    Mr. Hinojosa. Have waivers ever been given in Nevada's 
history of these technical programs where an exception can be 
made when we have a young man as intelligent and bright as you?
    Mr. Aleman. To be honest, I do not think such waivers exist 
here in Nevada because that is not part of the school. That is 
part of the State. That is part of the State policy. So unless 
there is a change on that State policy, then there would be--
    Mr. Hinojosa. You might want to ask that question because 
there was a Supreme Court court case where a DREAMer went 
through law school and was allowed to practice. So I think that 
sometimes we have to kick down some doors and open them up. 
Opportunities like professions in medicine or physician's 
assistant are things that we need badly here in the southwest 
in States like Nevada.
    Mr. Aleman. Yes, and that is why I stated that DACA is not 
sufficient because most of the licenses require you to be a 
permanent resident. Just like my co-worker, she graduated 
Nevada State College. She has a bachelor's degree, but she 
cannot--
    Mr. Hinojosa. I understand. I understand you are hitting a 
big wall. But, Alan, why do you believe that Congress must pass 
the DREAM Act as part of comprehensive immigration reform, and 
what would it do to the State of Nevada?
    Mr. Aleman. I think it will have not only a great economic 
impact on Nevada, but also on the United States of America. I 
think it is difficult to choose between our parents and our 
future. I think the DREAM Act should be with a comprehensive 
immigration reform because, in my opinion, thanks to my parents 
I am here. I got the education I needed to succeed in life.
    Mr. Hinojosa. My time has ended, so I will have to yield 
back.
    Chairman Kline. I thank the gentleman. We are running 
really late, but I am very pleased we have two of our 
colleagues not members of the committee who have joined us 
here. I think we still have two.
    Voice. Mr. Horsford stepped out.
    Chairman Kline. Okay, well, we may have two. So I am going 
to welcome Congresswoman Titus and Congressman Horsford. 
Without objection, Congresswoman Titus and Congressman Horsford 
will be permitted to participate in our hearing today.
    And I hear no objection, so, Ms. Titus, you are recognized 
for 5 minutes.
    Ms. Titus. Thank you, Mr. Chairman. And I was pleased to 
serve on this committee in a previous term. I also want to 
thank Mr. Hinojosa for pointing out that the cuts in the budget 
are not the President's policy, but are a result of a 1998 
statute with the hold harmless provision in that statute that 
deals with the formula. And there is a bipartisan effort 
underway now, led by Mr. Grijalva on our side, to change that 
formula. So let us be clear about that.
    Also, I thank you for being here, Kacy, for the downtown 
project. That is right in the heart of District 1. We are very 
excited about that. I would point out that Alan was the honored 
guest of the President at the last inaugural address, and, 
Professor Morrison, the student you mentioned, Yesenia, did 
most of her undergraduate work with my husband, Dr. Tom Wright, 
in the history department.
    Mr. Woodbeck, you mentioned and it is really true that we 
often hear from businesses about the shortage of Americans who 
have the skills needed to compete in the 21st century, and that 
is certainly true in the data. It is not over regulation. It is 
not an unfriendly business tax climate. It is the lack of a 
qualified workforce.
    So I commend the school district for wonderful academies 
like this and the magnet schools that feed into them with the 
STEM education. But we know it is not enough. There are waiting 
lines for children to get into these programs, and that is 
especially true if you look at the student body with the 
minority students, a lack of minority students going into STEM 
fields. Now, Alan may be the exception, but DREAMers and other 
minorities are not signing up for these fields.
    So I would ask you, Director, you sit on that STEM Advisory 
Council, and also Stavan Corbett, who is a member of the school 
board, sits on it, too. He is working with me on a bill I have 
introduced to use some of the money for certain visas that 
bring in high tech workers to provide scholarships for 
minorities going into the STEM fields and also to support 
universities and colleges that serve a large percentage of 
minority students.
    So what is the State doing to bring more minorities into 
the STEM fields? What can the Federal government do to help 
you? And then I would ask you the same thing about community 
college.
    Mr. Woodbeck. Thank you, Congresswoman Titus. First of all, 
the STEM Advisory Council, there is a twofold problem there. 
One is stirring up the interest and the knowledge of what STEM 
education is about and what those pathways will do for students 
in getting that interest. And there is quite a bit of interest, 
but we could certainly do more. The other piece is recognizing 
successful STEM programs, and that is the other piece that I 
will advocate for on that council, that we recognize them with 
awards to teachers and to schools, that we underwrite STEM 
education programming more, and that we insist through our own 
Department of Education of having STEM coursework as part of 
the regular curriculum.
    And it is a multifaceted approach that we need to take, and 
that will, in fact, attract other students, minority students 
and all students, quite frankly, into those programs.
    Ms. Titus. We are doing an app competition right now in my 
district, and they are working with Intel, Microsoft, and 
certainly Downtown Zappos to mentor some of those students who 
are competing in that. Are you doing anything special to 
attract minority students? What can we do to help you in that 
area?
    Dr. Spangler. Well, Congresswoman, it is really a function 
of defining ``minorities.'' For example, in our areas, and this 
is technical fields, we are looking at gender, which is one of 
the criterion under Perkins, trying to attract women to 
disciplines that have been historically male dominated--
automotive and diesel technology, information technology--or 
men into healthcare, for example.
    We are doing a number of different projects on that, and 
that is a standard we are trying to meet. For example, this 
coming May, we will be hosting or co-hosting a program called 
Geek Girls to encourage young women to enter information 
technology fields. So when we look at minority, we define it 
sometimes a little differently.
    Ms. Titus. Yes. Well, let us work with you on that. Mr. 
Chairman, I would yield the rest of my time to Mr. Hinojosa, if 
that is all right.
    Mr. Hinojosa. Thank you. I want to invite any and all of 
the members of this panel to come down to deep south Texas 
south of San Antonio. There is a University of Texas Rio Grande 
Valley, which is celebrating its 15th anniversary of HESTEC, an 
acronym, HESTEC, Hispanic Engineering Science Technology 
Conference. And we have graduated 2,000 minorities in 
engineering. We have graduated physicists and mathematicians. 
We have graduated researchers, and we have partners with over 
50 of corporate America to help sponsor HESTEC.
    Chairman Kline. The gentleman's time has expired. We all 
appreciate very much the invitation. The gentlelady's time has 
expired. All time for questions has expired.
    I would now like to turn to Dr. Heck for any closing 
comments he might have. And again, thank you for inviting us to 
your district.
    Mr. Heck. Sure. Well, again, I want to thank you, Chairman 
Kline, as well as the other colleagues from the committee for 
traveling here to have this field hearing. Again, Ms. Nemcek, 
thank you for hosting, all the panelists for participating. I 
also want to point out that we have Carolyn Edwards, one of our 
school board trustees, here in the audience, Joyce Haldeman--I 
do not know if she is still here--from the superintendent's 
office for coming and participating today.
    I think one of the resounding themes that we heard today 
when it comes to career technical education is partnerships. It 
is partnerships amongst secondary and post-secondary 
institutions, as well as private partners in the education 
system and employers, all things that are critical. I think we 
see that there is a very high return on investment for career 
and technical education. The follow-on effects for economic 
development as Mr. Woodbeck brought out I think are something 
that is critically important, especially for a State like 
Nevada that continues to struggle to recover from the great 
recession.
    As just a point of clarification, the President's Fiscal 
Year '15 budget does pull $100 million out of CTE funding for a 
new program, which would result in the hold harmless provision 
going into effect, which would then result in the 50 percent 
cut to Clark County School District's CTE funding.
    Mr. Chairman, I give you a lot of credit. You know, the 
committee has passed out the Elementary and Secondary Education 
Act, reauthorizing that. It is awaiting action in the Senate. 
We have passed out a Workforce Investment Reauthorization in 
the Skills Act doing a lot of the things that Mr. Woodbeck and 
our partners here today talked about in creating collaborative 
relationships, also awaiting action in the Senate. I hope we 
will be able to pass out the Perkins Act, working on the 
funding formula so that everybody is kept whole to the best of 
our ability. And, of course, we will also be tackling the 
Higher Education Act as soon as that expires in 2014.
    So we have a lot on our plates, but I know that the 
committee under your leadership is up to the challenge as we 
continue to try to make sure that we give all of our students 
every opportunity to graduate college career ready. Again, 
thank you for bringing the hearing here, and I yield back.
    Chairman Kline. Thank you, sir. Mr. Scott, you are 
recognized for any closing remarks.
    Mr. Scott. Thank you, Mr. Chairman. And I thank our local 
representative, Dr. Heck, Ms. Titus, and Mr. Horsford, for 
their hospitality. As we started off saying, education past the 
high school level would be essential for any decent job in the 
future. Those without some kind of education or training after 
high school will be relegated to very low-paying jobs.
    Career education will enable our students to qualify for 
those jobs with credentials so that the employer will know 
exactly what the employee can do so they do not have to guess, 
and people who are fully credentialed not get the jobs, and 
people who do not know what they are doing get the jobs. We 
need this education with the certificates.
    I think it is important that we not limit high school 
students. Vocational education used to be a dumping ground. If 
you could not do regular education, well, you just go over 
there and learn a little trade, stay in school, get your little 
diploma. Vocational education used to be a dumping ground, but 
as Dr. Spangler mentioned, these jobs now require expertise. 
And you are not going to get that in a dumping ground. You have 
got to get the basics, so we have to make sure that all of our 
students get the basics because they are going to certainly 
need it if they expect to do well in a career.
    We need to make sure that all students get that 
opportunity, including the DREAMers, and so we have to deal 
with immigration reform so that 65,000 high graduates every 
year do not get left behind. We also need to reauthorize the 
Perkins Act and Higher Education to ensure that today's 
students will be prepared for the future jobs. Thank you, Mr. 
Chairman.
    Chairman Kline. I thank the gentleman. I am told that we 
have been joined by Bart Patterson, President of Nevada State 
College. Welcome. Glad you could join us. We have had a lively 
conversation. We have had excellent, excellent witnesses with a 
great deal of knowledge. We very much appreciate your input.
    I want to thank my Nevada colleagues for letting us come 
and visit. It is a real hardship when you come from Minnesota 
to come to Las Vegas at this time of year.
    [Laughter.]
    Chairman Kline. But I was willing to make the sacrifice. 
Joe, thank you. Thank you very much. And again, thanks to our 
witnesses for a really, really good hearing.
    There being no further business, the committee stands 
adjourned.
    [Additional Submissions by Mr. Spangler follow:]
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [Whereupon, at 4:00 p.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
